                  STATE OF MARYLAND
      DEPARTMENT OF LABOR, LICENSING & REGULATION
                  500 North Calvert Street
                 Baltimore, Maryland 21202




                 LIMITED-SCOPE AUDIT OF

                    MARYLAND’S DLLR

          ADP/IT CENTRAL SERVICES COSTS CHARGED

                  TO U.S. DOL GRANTS IN

             OCTOBER 1996 THROUGH APRIL 2000




                               Final Report No: 03-01-002-03-315

                               Date Issued:




                TICHENOR & ASSOCIATES, LLP
CERTIFIED PUBLIC ACCOUNTANTS AND MANAGEMENT CONSULTANTS
                 LIMITED-SCOPE AUDIT OF

                     MARYLAND’S DLLR

      ADP/IT CENTRAL SERVICES COSTS CHARGED

                   TO U.S. DOL GRANTS IN

           OCTOBER 1996 THROUGH APRIL 2000




                      FINAL REPORT



This audit was performed by Tichenor & Associates, LLP, under
contract to the Office of Inspector General, and, by acceptance, it
becomes a report of the Office of Inspector General.


                              ________________________________
                              Assistant Inspector General for Audit
                              U.S. Department of Labor




                                      Final Report No: 03-01-002-03-315

                                      Date Issued:
                                               TABLE OF CONTENTS


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i

ACRONYMS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv

INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

     Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     Objectives and Scope . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
     Federal Cost Principles . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2

FINDINGS AND RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4

1. Uncredited Rebates Over $1.2 Million . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                4
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          7
      Auditee’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         7
      Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .         8

2. Unallowable Interest Costs Over $117,000 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
      Recommendations . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Auditee’s Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
      Auditor’s Conclusion . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12

INDEPENDENT ACCOUNTANT’S REPORT ON AUDIT . . . . . . . . . . . . . . . . . . . . . . . . . . 13

EXHIBITS

Exhibit A. Schedule of Final Distribution of ADP/IT Central Services
             Charges to DLLR for FFY 1998 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 16

Exhibit B. Schedule of Final Distribution of ADP/IT Central Services
             Charges to DLLR for FFY 1999 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17

Exhibit C. Schedule of Final Distribution of ADP/IT Central Services
             Charges to DLLR for FFY 2000 (through April 2000) . . . . . . . . . . . . . . . . . . . . . . . . 18

Exhibit D. Total Amount of Rebates Attributable to Individual
            DOL Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 19

Exhibit E. Total Amount of Unallowable Interest Costs Charged
            to Individual DOL Programs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20

AUDITEE’S RESPONSE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
                                  EXECUTIVE SUMMARY



Tichenor & Associates, LLP, under contract to the U.S. Department of Labor (DOL), Office of
Inspector General (OIG), performed a limited-scope audit of the automatic data processing and
information technology (ADP/IT) central services costs charged to DOL grant awards by the Maryland
Department of Labor, Licensing and Regulation (DLLR) for Federal Fiscal Years (FFYs) 1997, 1998,
1999, and 2000 (through April 2000).

The initial objective of this limited-scope audit was to determine whether the ADP/IT central services
costs charged to DOL Unemployment Insurance (UI) grants awarded to DLLR for FFY 1999 were
reasonable, allowable, and allocable under the Federal cost principles set forth in Office of
Management and Budget (OMB) Circular A-87, and the terms and conditions of the UI grant awarded
to DLLR. At the request of the DOL/OIG, we subsequently expanded the scope of our audit to
include all DOL grant awards to DLLR for FFYs 1997, 1998, 1999, and 2000 (through April 2000).

We were not engaged to, and did not, perform an audit of total costs charged to DOL grant awards by
DLLR, the objective of which would have been the expression of an opinion on the total costs claimed
by DLLR, and, accordingly, we do not express an opinion.

AUDIT RESULTS

Based on the results of our audit, we question a total of $1,339,695 in ADP/IT central services costs
charged to DOL grant awards by DLLR during FFYs 1997, 1998, 1999, and 2000 (through April
2000) which do not comply with Federal cost principles. The total amount questioned includes
$1,222,020 in rebates not credited to DOL grant awards (Finding No. 1), and $117,675 in
unallowable interest costs charged to DOL grant awards (Finding No. 2).

Specifically, we found that DLLR had received ADP/IT central services rebates totaling $1,272,783
from Annapolis Data Center (ADC) during FFYs 1998, 1999, and 2000 (through April 2000), of
which $1,222,020 (or more than 96 percent) were applicable to DOL grant awards. The rebates were
necessary because the ADP/IT central services billing rates overcharged DOL grant awards during
these years. However, DLLR did not credit these rebates to DOL grant awards as required by
Federal cost principles.

In addition, we found that ADC periodically notified DLLR of the amount of unallowable interest costs
on equipment acquisitions which had been included in its billings to DLLR. However, DLLR did not
exclude these unallowable interest costs from the ADP/IT costs charged to the various DOL grant
awards.


                                                   i
RECOMMENDATIONS

We recommend that the cognizant DOL grant officers direct DLLR to credit the applicable Federal
grants either as cost reductions or cash refunds, as appropriate, for:

•    $1,222,020 in rebates applicable to DOL grant awards which were received from ADC due to
     over-billings in FFYs 1998, 1999, and 2000 (through April 2000); and

•    $117,675 in unallowable interest costs included in ADC’s billings for ADP/IT central services
     costs charged to DOL grant awards in FFYs 1997, 1998, 1999, and 2000 (through April 2000).


We also recommend that the Assistant Secretary for Employment and Training direct DLLR to
implement internal control policies and procedures to ensure that costs claimed on DOL grant awards
are “net of all applicable credits” as required by OMB Circular A-87.

In addition, we recommend that the Assistant Secretary for Employment and Training direct DLLR to
implement internal control policies and procedures to ensure that all unallowable interest costs are
eliminated from the costs claimed for reimbursement under its DOL grant awards as required by OMB
Circular A-87.

AUDITEE’S RESPONSE

In a letter dated January 19, 2001, DLLR stated that it agreed with the findings presented in our draft
audit report dated December 21, 2000, and that all monies in question had been credited to the
appropriate Federal grant awards as of September 2000. Attached to DLLR’s response were a
number of journal vouchers showing accounting entries made in DLLR’s accounting records to credit
the rebates and unallowable interest costs to the DOL grant awards.

DLLR also stated that: (1) it had implemented internal control policies and procedures to insure that
similar funds would be handled properly in the future; and (2) it was in the process of adding additional
staff to the Office of Budget and Fiscal Services to handle the accounting for Federal funds. DLLR’s
written comments are discussed in more detail in each of our findings. The full text of DLLR’s response
has been included at the end of this report.

AUDITOR’S CONCLUSION

During our followup of corrective actions reported by DLLR’s, we were provided with documentation
showing that DLLR had prepared a number of journal vouchers which would result in credits to various
DOL grant awards in its accounting records for: (1) the various rebates received from the ADC; and
(2) the unallowable interest costs included in the ADP/IT central services costs charged to DOL grants.
In some instances, these journal entries were reversed out and re-entered one or more times because


                                                    ii
DLLR was uncertain about whether the methodologies used to allocate the credits to DOL grant
awards were appropriate.

In response to our queries, DLLR officials acknowledge that although these credits had been recorded
in their accounting records, they had not yet been credited to DOL in the form of cash refunds and/or
reduced expenditures on DLLR’s quarterly Financial Status Reports as of January 31, 2001. The
DLLR officials stated they were in the process of working with DOL program officials to determine the
best way to pass these credits on to DOL.

OIG concurs with DLLR’s response and considers these recommendations resolved. To close these
recommendations, DLLR must provide documentation to OIG to ensure that: (1) DOL actually
received proper credit in the form of reduced expenditures and/or cash refunds for the rebates and the
unallowable interest costs as required by OMB Circular A-87; and (2) the new internal control
procedures being implemented by DLLR will properly account for all credit transactions, including
rebates and unallowable interest costs.




                                                   iii
                                         ACRONYMS



ADP/IT      Automatic Data Processing/Information Technology

ADC         State of Maryland, Annapolis Data Center

BLS         Bureau of Labor Statistics

DLLR        State of Maryland, Department of Labor, Licensing and Regulation

DOL         U.S. Department of Labor

ES          Employment Service

ETA      Employment and Training Administration

FFY      Federal Fiscal Year

FSR         Financial Status Report

HHS         U.S. Department of Health and Human Services

OCD         U.S. Department of Labor, Office of Cost Determination

OIG         Office of Inspector General

OMB         U.S. Office of Management and Budget

SWCAP       Statewide Cost Allocation Plan

UI          Unemployment Insurance

VETS        Veterans Employment and Training Service




                                             iv
                                      INTRODUCTION



BACKGROUND

The State of Maryland’s Department of Labor, Licensing and Regulation (DLLR) receives substantial
Federal funding annually from various U.S. Department of Labor (DOL) agencies, including Bureau of
Labor Statistics (BLS), Employment Service (ES), Employment and Training Administration (ETA),
and Veterans Employment and Training Service (VETS). ETA’s Unemployment Insurance (UI)
program accounts for more than 60 percent of DLLR’s total Federal funding.

ETA has expressed concern that state (UI) programs which obtain automatic data processing and
information technology (ADP/IT) services from outside the UI agency tend to have extraordinary costs
compared with state UI programs which have their own ADP/IT capabilities. Accordingly, ETA has
requested that DOL, Office of Inspector General (OIG), consider this matter in planning future audit
work.

Although Maryland’s UI program has its own staff of computer programmers, it procures its computer
mainframe ADP/IT central services from Annapolis Data Center (ADC). ADC is a service bureau
providing ADP/IT central services to agencies and departments of the executive and legislative
branches of the Maryland State government. It is operated by the Information Technology Division in
the Maryland Office of the Comptroller. ADC provides mainframe computer services for nine primary
and fifteen secondary user agencies in the State of Maryland. ADC’s operational costs are fully
reimbursable from customer agencies via a charge-back billing which produces a monthly invoice for
computer usage and services rendered.

OBJECTIVES AND SCOPE

The primary objective of this limited-scope audit was to determine whether the ADP/IT central services
costs charged to the Maryland UI for FFY 1999 were reasonable, allowable, and properly allocable to
the UI program under the Federal cost principles set forth in Office of Management and Budget
(OMB) Circular A-87, and the terms and conditions of the UI grant awarded to Maryland’s DLLR.
At the request of the DOL/OIG, we subsequently expanded the scope of our audit to include all DOL
grant awards to DLLR for FFYs 1997, 1998, 1999, and 2000 (through April 2000).

We were not engaged to, and did not, perform an audit of total costs charged to DOL grant awards by
DLLR, the objective of which would have been the expression of an opinion on the total costs claimed
by DLLR, and, accordingly, we do not express an opinion.




                                                  1
Our limited-scope audit was performed in accordance with applicable standards established by the
American Institute of Certified Public Accountants and Government Auditing Standards issued by the
Controller General of the United States. Our engagement did not include expressing a written opinion
on the reasonableness and allowability of DLLR’s total claimed costs, the adequacy of its system of
internal controls, or its compliance with laws and regulations applicable to Federal grant awards.

The audit fieldwork for this engagement was conducted at ADC in Annapolis, Maryland, and at DLLR
offices in Baltimore, Maryland, during the period July-September, 2000. We held an exit conference
with DLLR officials on September 21, 2000.

FEDERAL COST PRINCIPLES

OMB Circular A-102 entitled “Grants and Cooperative Agreements with State and Local
Governments” sets forth Government-wide minimum uniform administrative requirements and
conditions which must be met by state and local governments which receive Federal financial
assistance, including standards for financial management systems. DOL has implemented these
requirements at Title 29, Code of Federal Regulations, Part 97. Both documents require that state and
local governments comply with the cost principles set forth in OMB Circular
A-87 entitled “Cost Principles for State, Local and Indian Tribal Governments” in determining
allowable costs.

Among other things, OMB Circular A-87 contains both general principles for determining allowable
costs (Attachment A) and specific guidelines for determining the allowability of selected items of cost
(Attachment B). The following cost principles are relevant to this particular report.

           Attachment A, Paragraph C.1. To be allowable under Federal awards, costs
           must meet the following general criteria(:) i. Be the net of all applicable
           credits. [Emphasis added.]

           Attachment A, Paragraph C.4.a. Applicable credits refer to those receipts or
           reduction of expenditure-type transactions that offset or reduce expense
           items allocable to Federal awards as direct or indirect costs. Examples of
           such transactions are: purchase discounts, rebates or allowances,
           recoveries or indemnities on losses, insurance refunds or rebates, and
           adjustments of overpayments or erroneous charges. To the extent that
           such credits accruing to or received by the governmental unit relate to
           allowable costs, they shall be credited to the Federal award either as a cost
           reduction or cash refund, as appropriate. [Emphasis added.]




                                                    2
          Attachment A, Paragraph D.1. The total cost of Federal awards is comprised
          of the allowable direct cost of the program, plus its allocable portion of
          allowable indirect costs, less applicable credits. [Emphasis added.]

          Attachment B, Paragraph 26.a. Costs incurred for interest on borrowed
          capital or the use of a governmental units’s own funds, however
          represented, are unallowable except as specifically provided in subsection
          b. or authorized by Federal legislation. [Emphasis added.]

          Attachment B, Paragraph 26.b. Financing costs (including interest) paid or
          incurred on or after the effective date of this Circular associated with
          otherwise allowable costs of equipment is allowable, subject to the
          conditions in (1)-(4).

               (1) The financing is provided . . . by a bona fide third party
               external to the governmental unit. [Emphasis added.]

Finally, internal control standards issued by the U.S. General Accounting Office, Standards for
Internal Control in the Federal Government, establish minimum acceptable levels of quality control
systems for Federal programs and activities. Some specific standards include:

     •    Documentation. All transactions and other significant events should be clearly
          documented, and the documentation should be readily available for examination. Such
          documentation should be complete and accurate and should facilitate tracing the transaction
          or event and related information from its beginning, while it is in process, and until after it has
          been completed.

     •    Recording of Transactions and Events. Transactions and other significant events must
          be promptly recorded and properly classified. This standard applies to (1) the entire
          process or life cycle of a transaction or significant event and includes the initiation and
          authorization; (2) all aspects of the transaction or event while in process; and (3) its final
          classification in summary records.

     •    Execution of Transactions and Events. Transactions and other significant events should
          be authorized and executed only by persons acting within the scope of their authority.




                                                     3
                       FINDINGS AND RECOMMENDATIONS



Based on the results of our audit, we question a total of $1,339,695 in ADP/IT central services costs
charged to DOL grant awards by DLLR during FFYs 1997, 1998, 1999, and 2000 (through April
2000).

Our audit disclosed that, although the ADP/IT costs billed to DLLR by ADC were generally charged to
DOL grant awards on the basis of relative benefits received, DLLR did not credit DOL grant awards
with the rebates received from ADC as required by OMB Circular A-87. Periodically, ADC issued
rebates to its various user organizations on a pro rata basis as a result of over-billings during each year.
During FFYs 1998, 1999, and 2000 (through April 2000), DLLR received rebates from ADC totaling
$1,272,783 of which $1,222,020 (or more than 96 percent) was applicable to DOL grant awards.
(See Exhibit D.)

In addition, we found that ADC sent out memoranda to each of its state user organizations informing
them of interest costs included in their respective billings and notified them of the need to comply with
Federal cost principles for ADP/IT costs charged to federally funded programs. However, DLLR
failed to take action to exclude the unallowable interest costs from Financial Status Reports (FSRs) on
its various DOL grant awards. Our audit disclosed that ADC billings to DLLR included unallowable
interest costs totaling $121,840 during FFYs 1997, 1998, 1999, and 2000 (through April 2000), of
which $117,675 (or 96.58 percent) was charged to DOL grant awards in violation of OMB Circular
A-87. (See Exhibit E.)

Based on our audit, we concluded that these problems were attributable, at least in part, to the fact that
DLLR had not established internal control procedures to ensure that costs claimed on the quarterly
FSRs fully complied with the Federal cost principles set forth in OMB Circular A-87.


 1.    Uncredited Rebates Over $1.2 Million

DLLR received periodic rebates totaling $1,272,783 from ADC during FFYs 1998, 1999, and 2000
(through April 30, 2000) caused by over-billings for ADP/IT central services costs. Our audit
disclosed that $1,222,020 (or more than 96 percent) of the total rebates was allocable to various DOL
grant awards. However, DLLR failed to credit the rebates to the various DOL grant awards to which
they were allocable as required by OMB Circular A-87.

OMB Circular A-87 (revised May 4, 1995) establishes principles and standards for determining
allowable costs for Federal awards carried out through grants, cost reimbursement contracts, and other
agreements with state and local governments and federally recognized Indian tribal governments. The


                                                     4
Circular states in Attachment A, paragraph C.1., that to be allowable under Federal awards, costs must
meet certain general criteria including, among other things, “Be the net of all applicable credits.” The
Circular also states in Attachment A, paragraph C.4.a. that:

            Applicable credits refer to those receipts or reductions of expenditure-type
            transactions that offset or reduce expense items allocable to Federal
            awards as direct or indirect costs. Examples of such transactions are:
            purchase discounts, rebates or allowances, . . . and adjustments of
            overpayments or erroneous charges. To the extent that such credits
            accruing to or received by the governmental unit relate to allowable costs,
            they shall be credited to the Federal award either as a cost reduction or
            cash refund, as appropriate. [Emphasis added.]

In addition, the Circular states in Attachment A, paragraph D.1. that: “The total cost of Federal
awards is comprised of the allowable direct cost of the program, plus its allocable portion of
allowable indirect costs, less applicable credits.” [Emphasis added.]

Our fieldwork at ADC disclosed, and ADC officials confirmed, that the ADC cost allocation plan used
to establish billing rates for the various central services it provides to state agencies will generally result
in the user organizations being over-billed during the year based on the assumption that it would be
easier to rebate the amounts overcharged than it was to try to recover any under-billings through
additional charges at the end of each year. The charge-back system is based on a cost allocation plan
prepared annually and approved by the Maryland Department of Budget and Management.

We found that ADC had issued four rebates to DLLR totaling $1,272,783 in FFYs 1998, 1999, and
2000 (through April 2000) as a result of its over-billings for ADP/IT central services costs during these
periods. The total amount of the rebates in each year represents DLLR’s pro rata share of the excess
of total ADC’s annual billings over its total actual costs for each year. The rebates to the various state
user organizations were made on a lump sum basis, and do not reflect the amounts applicable to
individual Federal grant awards. ADC officials track billings by state user organizations — not by
individual Federal grant awards — because only the user organizations have the information needed to
tie specific ADP/IT projects and services provided by ADC to specific Federal grant awards.
Therefore, our fieldwork at DLLR focused primarily on determining how DLLR allocated the total
ADC billings and the corresponding rebates to its various cost objectives.

Our audit disclosed that DLLR used a two-tier methodology for allocating and charging the monthly
ADC billings to the various benefitting cost objectives which generally complied with the requirements
set forth in OMB Circular A-87. First, using a large computer printout which accompanied (and
supported) the monthly ADC invoice, DLLR identified all ADC services and projects performed on
behalf of DLLR Office of Budget and Fiscal Services. The costs of these indirect services and projects
were then allocated to all DLLR final cost objectives on the basis of total authorized positions. Second,



                                                       5
the costs of the remaining ADC services and projects were then directly charged to the benefitting final
cost objectives.

However, when we asked DLLR officials about the methodology used to allocate ADC rebates to its
various cost objectives (including Federal grant awards), DLLR officials stated that they had not
allocated the rebates or reduced the Federal grant expenditures claimed for reimbursement on the
quarterly FSRs (SF-269s).

Our audit disclosed that DLLR does not have internal control procedures to ensure that costs claimed
on the quarterly FSRs Reports for its various Federal grant awards were “net of all applicable
credits” as required by OMB Circular A-87. Specifically, when we inquired about the policies and
procedures established by DLLR to ensure that all credits (e.g., ADC rebates) were either used as “a
cost reduction” on the SF-269s or a “cash refund” as required by OMB Circular A-87, a DLLR
official stated that when they received the rebate paperwork from ADC, they were unclear about how
to handle the rebate, so nothing was done.

Because DLLR did not apply the rebates received from ADC as credits to appropriate Federal grants,
these DOL grant awards for FFYs 1998, 1999, and 2000 (through April 30, 2000) were overstated
by a total of $1,222,020, as follows:



                 Federal                                                 DOL Share of Rebate
                                 Date of          Total Rebate
                  Fiscal
                                 Rebate            to DLLR                 Amount            Percent
                  Year
                   1998           7/9/98               $ 165,109           $ 160,040         96.93%

                   1999          4/27/99                  226,428             216,805        95.75%1

                   1999           7/7/99                  517,702             495,700        95.75%1

                   2000          4/21/00                  363,544             349,475        96.13%

                                  Totals              $1,272,783          $1,222,020         96.01%

                Note 1: Exhibit B shows the total DOL share of the rebate in FFY 1999 as 95.74 percent.
                        This 1/100th of a percentage point is due to rounding in our computerized
                        spreadsheets, and does not materially affect our calculations.




We calculated DOL’s percentage share of each rebate by summarizing DLLR’s allocation of total
ADC billings to its various Federal and state cost objectives for FFYs 1998, 1999, and 2000 (through
April 30, 2000). We also determined percentages by applicable DOL program offices (e.g., BLS, ES,
ETA, UI, and VETS), state programs, and three program cost centers for which the specific funding
sources were unknown. (See Exhibits A, B, and C.)

                                                            6
7
Recommendations

1a. We recommend that the cognizant DOL Grant Officers direct DLLR to credit the applicable
    Federal grants either as cost reductions, or cash refunds, as appropriate, for $1,222,020 in
    rebates applicable to DOL grant awards which were received from ADC due to over-billings in
    FFYs 1998, 1999, and 2000 (through April 2000) as follows:

     •     Bureau of Labor Statistics                                              $   3,067
     •     Employment Service                                                        257,902
     •     Employment and Training Administration                                      1,843
     •     Unemployment Insurance                                                    891,132
     •     Veterans Employment and Training Service                                   58,058
     •     Adjustment Due to Spreadsheet Rounding                                        $18
                Total                                                             $1,222,020

           (See Exhibit D for details.)

1b. We also recommend that the Assistant Secretary for Employment and Training direct DLLR to
    implement internal control policies and procedures to ensure that costs claimed on DOL grant
    awards are “net of all applicable credits” as required by OMB Circular
    A-87.

Auditee’s Response

In a letter dated January 19, 2001, DLLR stated that it agreed with the findings presented in our draft
report, and that all monies in question had been credited to the appropriate Federal grant awards as of
September 2000. DLLR acknowledged that, at least for the past 4 years, the ADC had been
overcharging its state user organizations for ADP/IT services, and then rebating the excess billings at
some point during the year. Rather than directing these credits to DLLR’s Office of Budget and Fiscal
Services, ADC sent them to DLLR’s Office of Information Technology where they were credited to its
Computer Usage – Annapolis Data Center account.

DLLR stated that the first rebate listed on page 6 of our draft report, in the amount of $165,109 (of
which we had determined that $160,040 was DOL’s share), was credited to its Office of Information
Technology on July 9, 1998, and distributed out to the appropriate programs on July 29, 1998. The
remaining rebates received in 1999 and 2000 were not distributed until September 2000.

DLLR stated that it has notified the ADC to send all future rebate credits directly to the Director of the
Office of Budget and Fiscal Services. In addition, DLLR has set up a system in the Office of Budget
and Fiscal Services to monitor the receipt of these rebates and to credit them to the appropriate DLLR
programs within one month of receipt. DLLR further stated that it has provided training to ensure that
all personnel responsible for Federal grant costs have an understanding of the cost principles set forth in


                                                     8
OMB Circular A-87, and that DLLR has established internal control procedures to ensure that costs
claimed on the quarterly financial status reports for Federal Grants are “net of all applicable credits,”
as required by OMB Circular A-87.

Finally, DLLR stated in its response that, as of September 30, 2000, $1,858,462 in rebates had been
credited to Federal grants, including all rebates from 1997 through 2000. DLLR said it had provided
documentation supporting these credits and the allocation process to the auditors in November 2000,
and that this documentation remains available in the Office of Budget and Fiscal Services.

Auditor’s Conclusion

During our followup on the corrective actions reported by DLLR in its January 19, 2001, response, we
were provided with documentation showing that DLLR had prepared a number of journal vouchers
which would result in credits to various DOL grant awards in its accounting records for the various
rebates it had received from the ADC. We were also provided with documentation showing that these
journal entries were reversed out and revised one or more times for each of the rebates. According to
DLLR officials, these multiple adjustments occurred because of uncertainties about whether the
methodologies used to allocate the rebate credits to DOL grant awards were appropriate.

In response to our queries, DLLR officials acknowledged that, although rebate credits had been
recorded in their accounting records, they had not been credited to DOL in the form of cash refunds or
reduced expenditures on DLLR’s quarterly Financial Status Reports as of January 31, 2001. They
stated that they were in the process of working with DOL program officials to determine the best way
to pass these credits on to DOL.

Although our audit focused only on the rebates received by DLLR in 1998, 1999, and 2000, DLLR is
correct in including the 1997 rebates (totaling about $585,000) in the corrective actions it is taking.
This increases the total to $1,858,462 in rebates received by DLLR during 1997 through 2000
(through April 30, 2000) — not the amount credited to Federal grants as represented in DLLR’s
response. DLLR officials stated that they are in the process of determining the exact amounts of
rebates to be credited to each grant in each fiscal year.

OIG concurs with DLLR’s response and considers these recommendations resolved. To close these
recommendations, DLLR must provide documentation to OIG to ensure that: (1) DOL actually
received proper credit for the rebates in the form of cash refunds and/or reduced expenditures, as
required by OMB Circular A-87; and (2) the new internal control procedures being implemented by
DLLR will properly account for all credit transactions.




                                                    9
 2.    Unallowable Interest Costs Over $117,000

ADC periodically sends memoranda to each of its state user organizations informing them of the interest
costs included in their respective billings for ADP/IT central services costs, and informing them of their
need to comply with Federal cost principles for ADP/IT costs in federally funded programs. We
determined those ADC billings to DLLR for FFYs 1997, 1998, 1999, and 2000 (through April 2000)
included unallowable interest costs totaling $121,840, of which $117,675 (or 96.58 percent) was
charged to DOL grant awards in violation of OMB Circular A-87.

OMB Circular A-87, Attachment B, provides specific criteria and guidelines to grantees regarding the
allowability of selected items of costs. Paragraph 26 of Attachment B states that:

           a. Costs incurred for interest on borrowed capital or the use of a
           governmental unit’s own funds, however represented, are unallowable
           except as specifically provided in subsection b. or authorized by Federal
           legislation. [Emphasis added.]

           b. Financing costs (including interest) paid or incurred on or after the
           effective date of this Circular associated with otherwise allowable costs of
           equipment is allowable, subject to the conditions in (1)-(4).

                 (1) The financing is provided . . . by a bona fide third party external to
                 the governmental unit. [Emphasis added.]

During our fieldwork at ADC, we found that interest costs on ADP equipment acquisitions were
included in the total ADC costs used in its cost allocation plans to calculate its billing rates. In response
to our query about why the unallowable interest costs had not been excluded from its billing rates, an
ADC official stated that ADC was operated as a service bureau for state agencies and that its costs
were fully reimbursable from the user agencies via a charge-back billing system. He stated that ADC
sends a memorandum at least annually to each state user organization reporting the dollar amount of
interest cost included in its billings for that year. These memoranda instruct the user organizations that
they may have to eliminate the interest costs when reporting costs under their various Federal grant
awards.

Our audit disclosed that ADC did not finance any of its equipment acquisitions directly with bona fide
third-party lending institutions. Thus, the interest costs included in its billing rates are unallowable.

In addition, during our fieldwork at DLLR, we followed up to determine whether the unallowable
interest costs periodically reported by ADC had been excluded from the total costs claimed for
reimbursement by DLLR in the quarterly FSRs on its various Federal grant awards. DLLR officials
acknowledged that they had taken no action to eliminate the interest costs reported by ADC from the
total costs charged by DLLR to its various Federal grant awards.

                                                     10
Our audit disclosed that DLLR does not have internal control procedures to ensure that the unallowable
interest costs included in ADC billings for ADP/IT central services costs were excluded from the costs
charged by DLLR in the quarterly FSRs.

In response to our queries about why the unallowable interest costs were not excluded from the
ADP/IT costs charged to the various DOL grant awards, DLLR officials initially told us that they had
never received any correspondence from ADC regarding unallowable interest costs. However, when
we pointed out that we had found one of the ADC interest memoranda in DLLR’s file of monthly
invoices received from ADC for ADP/IT central services billing, DLLR officials said that they were
unclear about how to handle such memoranda, so nothing was done.

Because DLLR did not eliminate the unallowable interest costs included in the ADP/IT costs billed by
ADC for FFYs 1997, 1998, 1999, and 2000 (through April 30, 2000), the DOL grant awards were
overstated by a total of $117,675, as follows:


                                                        Total                Share of Unallowable
                                  Interest                                    Interest Charged to
                 Federal                             Unallowable
                                   Memo                                              DOL
                  Fiscal                               Interest
                                 Issued by
                  Year                                Reported
                                  Quarter                                    Amount            Percent
                                                      to DLLR

                   1997                1st                  $ 25,604         $ 24,818          96.93%

                   1997               3rd                       26,459          25,647         96.93%

                   1998               3rd                       30,291          29,361         96.93%

                   1999               3rd                       28,556          27,342         95.75%1

                   2000               2nd                       10,930          10,507         96.13%
                                    Totals                  $121,840         $117,675          96.58%

              Note 1: Exhibit B shows the total DOL share of the rebate in FFY 1999 as 95.74 percent. This
                      1/100th of a percentage point results from rounding in our computerized spreadsheets,
                      and does not materially affect our calculations.




We calculated the amount of unallowable interest costs charged to DOL programs by summarizing
DLLR’s allocation of total ADC billings to its various Federal and state cost objectives, as discussed in
the preceding finding. We also determined the percentages applicable to individual DOL program
offices (e.g., BLS, ES ETA, UI, and VETS). (See Exhibit E.)




                                                           11
Recommendations

2a. We recommend that the cognizant DOL Grant Officers direct DLLR to credit the applicable
    Federal grants either as cost reductions, or cash refunds, as appropriate, for $117,675 in
    unallowable interest costs included in ADC’s billings for ADP/IT central services costs charged to
    DOL grant awards in FFYs 1997, 1998, 1999, and 2000 (through April 2000), as follows:

     •     Bureau of Labor Statistics                                              $  1,311
     •     Employment Service                                                        23,443
     •     Employment and Training Administration                                       133
     •     Unemployment Insurance                                                    88,189
     •     Veterans Employment and Training Service                                   4,591
     •     Adjustment Due to Spreadsheet Rounding                                         8
                Total                                                              $117,675

           (See Exhibit E for details.)

2b. We recommend that the Assistant Secretary for Employment and Training direct DLLR to
    implement internal control policies and procedures to ensure that all unallowable interest costs are
    eliminated from the costs claimed for reimbursement under its DOL grant awards as required by
    OMB Circular A-87.

Auditee’s Response

In its letter dated January 19, 2001, DLLR stated that it agreed with the findings presented in our draft
report. DLLR stated that up until the time of the audit, there had not been a procedure within the
Office of Budget and Fiscal Services to deduct unallowable interest costs from the ADC charges made
to the Federal programs. While notices were apparently sent by ADC to DLLR informing it of the
amount of the interest costs, these notices were not directed to the Director of the Office of Budget and
Fiscal Services, and were not acted on by the individuals who processed the billings.

DLLR said that it has requested that the ADC send all communications regarding billings, credits, and
interest to the attention of the Director of the Office of Budget and Fiscal Services to ensure that they
are given to the appropriate personnel for processing. The individuals who handle the accounting for
these monies have been trained so that they can identify unallowable costs, and make the necessary
deductions from the charges to Federal grant programs. Also, internal control policies and procedures
have been established to ensure that all unallowable costs included in the ADC billings will be excluded
from the costs claimed by DLLR under its DOL grant awards.

In addition, DLLR said it had reimbursed the budgets of the Federal programs which have been
charged with unallowable interest costs in a total amount of $121,840. Documentation supporting these
reimbursements was provided to the auditors in November 2000 and remains available for inspection in
the Office of Budget and Fiscal Services.

                                                   12
Auditor’s Conclusion

During our followup on the corrective actions reported by DLLR in its January 19, 2001, response, we
were provided with documentation showing that DLLR had prepared several journal vouchers which
would result in credits to various DOL grant awards in its accounting records for the unallowable
interest costs included in it ADC billings for 1997, 1998, 1999, and 2000 (through April 2000).

In response to our queries, DLLR officials acknowledged that, although the credits for unallowable
interest costs had been recorded in their accounting records, these credits had not been credited to
DOL in the form of cash refunds, or reduced expenditures on DLLR’s quarterly Financial Status
Reports as of January 31, 2001. DLLR stated that they were in the process of working with DOL
program officials to determine the best way to pass these credits on to DOL.

DLLR is incorrect in its statement that it has reimbursed the budgets of the Federal programs which
were charged with unallowable interest costs of $121,840. This amount represents the total amount of
unallowable interest costs included in the ADC billings to DLLR during the period 1997 through April
2000 — not the amount credited to Federal grants.

OIG concurs with DLLR’s response and considers these recommendations resolved. To close these
recommendations DLLR must provide documentation to OIG to ensure that: (1) DOL actually received
proper credit for the unallowable interest costs in the form of cash refunds and/or reduced
expenditures, as required by OMB Circular A-87; and (2) the new internal control procedures being
implemented by DLLR verify that unallowable costs are excluded from total grant costs submitted to
DOL.




                                                   13
                                    TICHENOR & ASSOCIATES , LLP
                   CERTIFIED PUBLIC ACCOUNTANTS and MANAGEMENT CONSULTANTS


                                            W ASHINGTON OFFICE
                                        12531 CLIPPER DRIVE SUITE 202
                                           W OODBRIDGE VA 22192
PARTNERS
W ILLIAM R. T ICHENOR                                                                 BUSINESS: (703) 490-1004
DEIRDRE M. REED                                                                          M ETRO: (703) 352-1417
                                                                                            FAX: (703) 491-9426
                                                                             E-M AIL: T ICHA SSOC@AOL.COM




Mr. John J. Getek
Assistant Inspector General for Audit
Office of Inspector General
U.S. Department of Labor
200 Constitution Ave., NW
Washington, DC 20210


                        INDEPENDENT ACCOUNTANT'S REPORT ON AUDIT

Tichenor & Associates, LLP, was engaged by the Office of Inspector General (OIG), U.S. Department
of Labor (DOL), to conduct a limited-scope audit of the automatic data processing and information
technology (ADP/IT) central services costs charged to grants awarded to the State of Maryland’s
Department of Labor, Licensing and Regulation (DLLR) for Federal fiscal years (FFYs) 1997, 1998,
1999, and 2000 (through April 2000).

The initial objective of this limited-scope audit was to determine whether the ADP/IT central services costs
charged to DOL Unemployment Insurance (UI) grants awarded to DLLR for FFY 1999 were reasonable,
allowable, and allocable under the Federal cost principles set forth in Office of Management and Budget
(OMB) Circular A-87, and the terms and conditions of the UI grant awarded to DLLR. However, at the
request of the DOL/OIG, we subsequently expanded the scope of our audit to include all DOL grant
awards to DLLR for FFYs 1997, 1998, 1999, and 2000 (through April 2000).

We were not engaged to, and did not, perform an audit of total costs charged to DOL grant awards by
DLLR, the objective of which would have been the expression of an opinion on the total costs claimed by
DLLR, and, accordingly, we do not express an opinion.

Based on the results of our audit, we questioned a total of $1,339,695 in ADP/IT central services costs
charged to DOL grant awards by DLLR during FFY 1997, 1998, 1999, and 2000 (through April 2000)
which were not in compliance with the Federal costs principles mandated by OMB Circular A-87.
Specifically, we found that DLLR had received ADP/IT central services cost rebates totaling $1,272,783
during FFYs 1998, 1999, and 2000 (through April 2000) of which $1,222,020 (or more than 96 percent)
were applicable to DOL grant awards; however, DLLR

                                                    14
     failed to credit these rebates to DOL grant awards as required by Federal cost principles. In
     addition, we found that DLLR was notified that its ADP/IT central services billings for FFYs 1997,
     1998, 1999, and 2000 (through April 2000) included unallowable interest costs totaling $121,840;
     however, DLLR took no action to exclude $117,675 in unallowable interest costs included in the
     ADP/IT central services costs charged to its various DOL grant awards as required by Federal cost
     principles.

This limited-scope audit was performed in accordance with applicable standards established by the
American Institute of Certified Public Accountants, and the Government Auditing Standards issued by
the Controller General of the United States. Our engagement did not include expressing a written opinion
on the reasonableness and allowability of DLLR’s total claimed costs, the adequacy of its overall system
of internal controls, or its compliance with laws and regulations applicable to Federal grant awards. Our
detailed findings, conclusions, and recommendations are contained in the accompanying report.

This report is intended solely for the use of the U.S. Department of Labor; however, the final report is a
matter of public record and its distribution is not limited.




TICHENOR & ASSOCIATES, LLP
Woodbridge, Virginia
November 15, 2000




                                                   15
EXHIBITS




   16
                                                                                                           Exhibit A

             Schedule of Final Distribution of ADP/IT Central Services Charges to DLLR for FFY 1998

                                                          FFY 1998 DLLR                Percentage Share
   Funding
                            Organization                 Total Allocation
   Source                                                                       DOL          State         Other
                                                         of ADC Charges
BLS            Labor Market analysis - CES                      $ 1,885.95      0.14%
BLS            Labor Market Analysis - ES 202                   12,976.11       0.94%
                    Subtotals                                  $14,862.06       1.07%
ES             Alien Labor Certification                       $13,003.09       0.94%
ES             WOTC/TJTC                                        48,378.35       3.50%
ES             Job Service (10%)                                    689.33      0.05%
ES             Job Service (Wagner-Peyser) 90%                 196,082.37      14.17%
                    Subtotals                                $258,153.14       18.66%
ETA            EDWAA                                              $333.15       0.02%
ETA            JTPA (OET)                                           932.84      0.07%
                    Subtotals                                   $1,265.99       0.09%
UI             UI Quality Control/Random Audit                  $3,049.92       0.22%
UI             Labor Market Analysis - Admin.                     2,465.38      0.18%
UI             Appeals Division                                   6,175.85      0.45%
UI             UI Alien Verification Save                             0.00      0.00%
UI             UI Benefit System Redesign-MABS                 815,725.58      58.96%
UI             Office of Information Technology                   3,731.39      0.27%
UI             Unemployment Insurance                          190,903.63      13.80%
UI             UI Child Support                                      44.96      0.00%
                    Subtotals                               $1,022,096.71      73.88%
VETS           DVOP                                            $26,403.97       1.81%
VETS           LVER                                             18,177.56       1.31%
                    Subtotals                                  $44,581.53       3.22%
State          Labor and Industry                              $12,843.36                     0.93%
State          Office of the Secretary                          16,192.10                     1.17%
State          Occupational & Professional                        5,597.09                    0.40%
State          Licensing                                          4,161.18                    0.30%
State          Division of Racing                                 2,798.54                    0.20%
               Financial Regulation
                    Subtotals                                   $41,592.27                    3.01%
unknown        Assistant Secretary - DET                          $533.05                                   0.04%
(1)            MOICC - Admin                                        266.55                                  0.02%
unknown        CareerNet                                             66.61                                  0.00%
(2)
unknown
(3)
                   Subtotals                                       $866.21                                 0.06%
               Percentage Subtotals by Agency                                  96.93%         3.01%        0.06%
               Totals                                         $1,383,417.91                                100.00
                                                                                                               %

Notes:
(1) According to DLLR officials, these charges are shared by three DOL programs (Labor Market Analysis, Job
Service, and UI). However, they were unable to tell us how much was charged to each of the three programs.

(2) DLLR officials were unable to identify the funding source for these costs. Our review indicates that these costs
are probably being funded through the U.S. Department of Education.

                                                         17
(3) DLLR officials were unable to identify the funding source for these costs. There are indications that it was
funded through Job Service, but DLLR officials were unable to confirm this information.




                                                         18
                                                                                                           Exhibit B

             Schedule of Final Distribution of ADP/IT Central Services Charges to DLLR for FFY 1999

                                                          FFY 1999 DLLR                Percentage Share
   Funding
                            Organization                 Total Allocation
   Source                                                                       DOL          State         Other
                                                         of ADC Charges
BLS            Labor Market analysis - CES                        $ 836.07      0.05%
BLS            Labor Market Analysis - ES 202                   23,952.15       1.41%
                    Subtotals                                  $24,788.22       1.46%
ES             Alien Labor Certification                       $26,244.84       1.54%
ES             WOTC/TJTC                                        95,284.33       5.59%
ES             Job Service (10%)                                  1,046.36      0.06%
ES             Job Service (Wagner-Peyser) 90%                 221,293.54      12.99%
                    Subtotals                                $343,869.07       20.19%
ETA            EDWAA                                              $569.65       0.03%
ETA            JTPA (OET)                                         1,595.00      0.09%
                    Subtotals                                   $2,164.65       0.13%
UI             UI Quality Control/Random Audit                  $3,589.75       0.21%
UI             Labor Market Analysis - Admin.                     4,215.36      0.25%
UI             Appeals Division                                   8,621.90      0.51%
UI             UI Alien Verification Save                             0.00      0.00%
UI             UI Benefit System Redesign-MABS                 389,915.36      22.89%
UI             Office of Information Technology                   6,379.99      0.37%
UI             Unemployment Insurance                          750,032.46      44.03%
UI             UI Child Support                                      45.72      0.00%
                    Subtotals                               $1,162,800.54      68.26%
VETS           DVOP                                            $57,722.18       3.39%
VETS           LVER                                             39,483.59       2.32%
                    Subtotals                                  $97,205.77       5.71%
State          Labor and Industry                              $21,959.71                     1.29%
State          Office of the Secretary                          27,684.60                     1.63%
State          Occupational & Professional                        9,569.99                    0.56%
State          Licensing                                          7,114.82                    0.42%
State          Division of Racing                                 4,784.99                    0.28%
               Financial Regulation
                    Subtotals                                   $71,114.11                    4.17%
unknown        Assistant Secretary - DET                          $911.42                                   0.05%
(1)            MOICC - Admin                                        455.71                                  0.03%
unknown        CareerNet                                            113.94                                  0.01%
(2)
unknown
(3)
                   Subtotals                                     $1,481.07                                 0.09%
               Percentage Subtotals by Agency                                  95.74%         4.17%        0.09%
               Totals                                         $1,703,423.43                                100.00
                                                                                                               %

Notes:
(1) According to DLLR officials, these charges are shared by three DOL programs (Labor Market Analysis, Job
Service, and UI). However, they were unable to tell us how much was charged to each of the three programs.

(2) DLLR officials were unable to identify the funding source for these costs. Our review indicates that these costs
are probably being funded through the U.S. Department of Education.

                                                         19
(3) DLLR officials were unable to identify the funding source for these costs. There are indications that it was
funded through Job Service, but DLLR officials were unable to confirm this information.




                                                         20
                                                                                                       Exhibit C

            Schedule of Final Distribution of ADP/IT Central Services Charges to DLLR for FFY 2000
                                               (through April 2000)

                                                        FFY 2000 DLLR              Percentage Share
  Funding
                           Organization                Total Allocation
  Source
                                                       of ADC Charges        DOL         State        Other
BLS           Labor Market analysis - CES                        $ 65.70     0.01%
BLS           Labor Market Analysis - ES 202                      980.24     0.11%
                  Subtotals                                   $1,045.94      0.12%
ES            Alien Labor Certification                       $6,947.37      0.81%
ES            WOTC/TJTC                                       53,334.46      6.24%
ES            Job Service (10%)                                   411.38     0.05%
ES            Job Service (Wagner-Peyser) 90%                119,963.79     14.03%
                   Subtotals                               $180,657.00      21.14%
ETA           EDWAA                                             $790.38      0.09%
ETA           JTPA (OET)                                          936.25     0.11%
                   Subtotals                                  $1,726.63      0.20%
UI            UI Quality Control/Random Audit                 $1,445.73      0.17%
UI            Labor Market Analysis - Admin.                    1,924.53     0.23%
UI            Appeals Division                                  4,336.09     0.51%
UI            UI Alien Verification Save                            0.00     0.00%
UI            UI Benefit System Redesign-MABS                200,943.04     23.51%
UI            Office of Information Technology                  2,849.75     0.33%
UI            Unemployment Insurance                         402,610.77     47.10%
UI            UI Child Support                                     12.14     0.00%
                   Subtotals                               $614,122.05      71.85%
VETS          DVOP                                           $13,393.24      1.57%
VETS          LVER                                            10,747.30      1.26%
                   Subtotals                                 $24,140.54      2.82%
State         Labor and Industry                             $10,766.99                   1.26%
State         Office of the Secretary                         12,817.65                   1.50%
State         Occupational & Professional                       4,265.18                  0.50%
State         Licensing                                         1,664.45                  0.19%
State         Division of Racing                                2,964.83                  0.35%
              Financial Regulation
                   Subtotals                                $32,479.10                    3.80%
unknown       Assistant Secretary - DET                       $421.64                                  0.05%
(1)           MOICC - Admin                                     156.05                                 0.02%
unknown       CareerNet                                           0.00                                 0.00%
(2)
unknown
(3)
                   Subtotals                                    $577.69                               0.07%
              Percentage Subtotals by Agency                                96.13%        3.80%       0.07%
              Totals                                       $854,748.95                                100.00
                                                                                                          %

Notes:
(1) According to DLLR officials, these charges are shared by three DOL programs (Labor Market Analysis, Job
Service, and UI). However, they were unable to tell us how much was charged to each of the three programs.



                                                      21
(2) DLLR officials were unable to identify the funding source for these costs. Our review indicates that these costs
are probably being funded through the U.S. Department of Education.

(3) DLLR officials were unable to identify the funding source for these costs. There are indications that it was
funded through Job Service, but DLLR officials were unable to confirm this information.




                                                         22
                                                                                            Exhibit D

                Total Amount of Rebates Attributable to Individual DOL Programs



                                                           DOL Program        DOL Program
  Funding         Federal
                                  Total Rebates          Office Percentage    Office Share of
  Source        Fiscal Year
                                                               Share              Rebate
BLS              FFY 1998                 $165,109                   1.07%              $ 1,767
                 FFY 1999                  744,130                   1.46%              10,864
                 FFY 2000                  363,544                   0.12%                  436
    BLS Subtotals                                                                      $13,067
ES               FFY 1998                 $165,109                 18.66%              $30,809
                 FFY 1999                  744,130                 20.19%              150,240
                 FFY 2000                  363,544                 21.14%               76,853
    ES Subtotals                                                                      $257,902
ETA              FFY 1998                 $165,109                  0.09%                 $149
                 FFY 1999                  744,130                  0.13%                   967
                 FFY 2000                  363,544                  0.20%                   727
    ETA Subtotals                                                                       $1,843
UI               FFY 1998                 $165,109                 73.88%             $121,983
                 FFY 1999                  744,130                 68.26%              507,943
                 FFY 2000                  363,544                 71.85%              261,206
    UI Subtotals                                                                      $891,132
VETS             FFY 1998                 $165,109                  3.22%               $5,317
                 FFY 1999                  744,130                  5.71%               42,490
                 FFY 2000                  363,544                  2.82%               10,252
    VETS Subtotals                                                                     $58,058

Adjustment due to spreadsheet rounding of percentages.                                     $18



Total DOL Share of Rebates                                                          $1,222,020




                                              23
                                                                                              Exhibit E

                           Total Amount of Unallowable Interest Costs Charged
                                      to Individual DOL Programs



                                                                                  Unallowable
                                           Total            DOL Program          Interest Costs
  Funding              Federal
                                       Unallowable        Office Percentage        Charged to
  Source             Fiscal Year
                                      Interest Costs            Share            Individual DOL
                                                                                Program Offices
BLS                FFY 1997                    $52,063                1.07%               $557
                   FFY 1998                     30,291                1.07%                 324
                   FFY 1999                     28,556                1.46%                 417
                   FFY 2000                     10,930                0.12%                  13
      BLS Subtotals                                                                      $1,311
ES                   FFY 1997                  $52,063               18.66%              $9,715
                     FFY 1998                   30,291               18.66%               5,652
                     FFY 1999                   28,556               20.19%               5,765
                     FFY 2000                   10,930               21.14%               2,311
      ES Subtotals                                                                      $23,443
ETA             FFY 1997                       $52,063                0.09%                 $47
                FFY 1998                        30,291                0.09%                  27
                FFY 1999                        28,556                0.13%                  37
                FFY 2000                        10,930                0.20%                  22
   ETA Subtotals                                                                          $133
UI              FFY 1997                       $52,063               73.88%             $38,464
                FFY 1998                        30,291               73.88%              22,379
                FFY 1999                        28,556               68.26%              19,492
                FFY 2000                        10,930               71.85%               7,853
   UI Subtotals                                                                         $88,189
VETS            FFY 1997                       $52,063                3.22%              $1,676
                FFY 1998                        30,291                3.22%                 975
                FFY 1999                        28,556                5.71%               1,631
                FFY 2000                        10,930                2.82%                 308
   VETS Subtotals                                                                        $4,591

Adjustment due to spreadsheet rounding of percentages.                                       $8



Total Unallowable Interest Costs Charged to DOL                                        $117,675




                                                  24
AUDITEE’S RESPONSE




        25
